No.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2O2T

EDWARD THOMAS JAMES, APPLICANT/PETITIONER

v

STATE OF FLORIDA, RESPONDENT

UNOPPOSED APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A \ryRIT OF CERTIORARI TO THE SUPREME COURT OF
THE STATE OF FLORIDA
DEATH PENALTY CASE

DIRECTED TO THE HONORABLE CLARENCE THOMAS, ASSOCIATE
JUSTICE OF THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT
JUSTICE FOR THE ELEVENTH CIRCUIT
ROBERT S. FRIEDMAN
KARIN L. MOORE

Counsel of Record
Office of the Capital Collateral
Regional Counsel - Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 32301
(850) 487-0e22
Robert. Friedman@ccrc-north. org
Karin.Moore@ccrc-north.org

Attorneys for Applicant/Petitioner

October L4,202L

1

UNOPPOSED APPLICATION FOR AN EXTENSION OF TIME

Petitioner Edward Thomas James respectfully requests, pursuant to Rule 13.5

of the Rules of this Court, an extension of time of 60 days, to and including January

22, 2022 for the filing of a petition for a writ of certiorarr

JUDGMENT FOR WHICH REVIEW IS SOUGHT

The judgment for which review is sought is the Florida Supreme Court decision

on JuIy 8, 202L denying relief to Petitioner (Exhibit 1) and the order denying his

motion for rehearing on August 30,202I (Exhibit 2).

JURISDICTION

This Court has jurisdiction to grant a writ of certiorari under 28 U.S.C.

S

1257(a). Under Rules 13.1, 13.3, and 30.1 of the Rules of this Court, a petition for a

writ of certiorari would be due to be filed on or before Novembet 28, 2021. In
accordance

with Rule 13.5, this application is being filed more than 10 days in

advance of filing date for the petition for a writ of certiorari.

REASONS JUSTIFYING AN D(TENSION OF TIME

The Office of the Capital Collateral Regional Counsel-Northern

("CCRC-N") was appointed by the

Region

trial court to represent Petitioner and will file the

certiorari petition. This request for an extension of time is based upon good cause, as
follows:

Undersigned counsel has an

initial state court postconviction motion due on

October L9,2021ín Støte u. Rodney Newberry (Duval County case 2012-CF-9296), an

initial brief

due in the Florida Supreme Court on November 19, 202I ín State u. Dauid
2

Russ, SC 2L-I205, a petition due

in this Court in capital

case State of Florída

u.

Edward T. James (SC20-1036) on November 29, 202I, and other state court filing
deadlines in other capital cases in the next few months

A 60-day extension of time is reasonable in Petitioner's case to allow CCRC-N

to research, coordinate, and present the instant petition in a professional manner.

Furthermore, undersigned counsel is authorized to represent that she has

conferred with Assistant Attorney General Patrick A. Bobek and he has no objection

to this request for a 60-day extension of time.

CONCLUSION

For the foregoing reasons, petitioner hereby requests that an extension of time

to and including January 22, 202I, be granted within which petitioner may file

petition for a writ of certiorari.

submitted,

Re

ROBERT S. FRIEDMAN
KARIN L. MOORE

Counsel of Record,
Office of the Capital Collateral
Regional Counsel - Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 32301
(850) 487-0e22
Robert. Frie dman@ccrc- north.org
Karin. Moore@ccrc-north.org

October 14,2O2I

Attorneys for Applicant/Petitioner

3

a

